<html>
<title> - [H.A.S.C. No. 111-88]CHEMICAL, BIOLOGICAL, RADIOLOGICAL, NUCLEAR, AND HIGH-YIELD EXPLOSIVES CONSEQUENCE MANAGEMENT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 111-88]

CHEMICAL, BIOLOGICAL, RADIOLOGICAL, NUCLEAR, AND HIGH-YIELD EXPLOSIVES 
                         CONSEQUENCE MANAGEMENT

                               __________

                                HEARING

                               BEFORE THE

   SUBCOMMITTEE ON TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 28, 2009

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                  U.S. GOVERNMENT PRINTING OFFICE
58-292                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





   SUBCOMMITTEE ON TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES

                    ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
JIM COOPER, Tennessee                BILL SHUSTER, Pennsylvania
JIM MARSHALL, Georgia                K. MICHAEL CONAWAY, Texas
BRAD ELLSWORTH, Indiana              THOMAS J. ROONEY, Florida
PATRICK J. MURPHY, Pennsylvania      MAC THORNBERRY, Texas
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
                Eryn Robinson, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant









                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Tuesday, July 28, 2009, Chemical, Biological, Radiological, 
  Nuclear, and High-Yield Explosives Consequence Management......     1

Appendix:

Tuesday, July 28, 2009...........................................    27
                              ----------                              

                         TUESDAY, JULY 28, 2009
CHEMICAL, BIOLOGICAL, RADIOLOGICAL, NUCLEAR, AND HIGH-YIELD EXPLOSIVES 
                         CONSEQUENCE MANAGEMENT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Miller, Hon. Jeff, a Representative from Florida, Ranking Member, 
  Subcommittee on Terrorism, Unconventional Threats and 
  Capabilities...................................................     2
Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Subcommittee on Terrorism, Unconventional Threats and 
  Capabilities...................................................     1

                               WITNESSES

D'Agostino, Davi M., Director, Defense Capabilities and 
  Management, U.S. Government Accountability Office..............    21
Heyman, Hon. David, Assistant Secretary for Policy, U.S. 
  Department of Homeland Security................................     2
Renuart, Gen. Victor E., Jr., USAF, Commander, U.S. Northern 
  Command and North American Aerospace Defense Command...........     6
Stockton, Hon. Paul N., Assistant Secretary of Defense for 
  Homeland Defense and Americas' Security Affairs, U.S. 
  Department of Defense..........................................     4

                                APPENDIX

Prepared Statements:

    D'Agostino, Davi M...........................................    64
    Heyman, Hon. David...........................................    34
    Miller, Hon. Jeff............................................    32
    Renuart, Gen. Victor E., Jr..................................    56
    Smith, Hon. Adam.............................................    31
    Stockton, Hon. Paul N........................................    45

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 
 CHEMICAL, BIOLOGICAL, RADIOLOGICAL, NUCLEAR, AND HIGH-YIELD EXPLOSIVES 
                         CONSEQUENCE MANAGEMENT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
     Subcommittee on Terrorism, Unconventional Threats and 
                                              Capabilities,
                            Washington, DC, Tuesday, July 28, 2009.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2212, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
WASHINGTON, CHAIRMAN, SUBCOMMITTEE ON TERRORISM, UNCONVENTIONAL 
                    THREATS AND CAPABILITIES

    Mr. Smith. Good morning. I will call the meeting to order.
    Welcome.
    I have an opening statement that I have submitted for the 
record and will, with unanimous consent, just if we have that 
read into the record, and make a couple of quick comments.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 31.]
    Mr. Smith. We mostly want to hear from the panel on a very 
important issue that we are talking about this morning on 
chemical, biological, radiological and nuclear--preventing 
those attacks on the United States. It is a very complicated 
issue, mainly because so many different people are working on 
it. Trying to make sure we keep that coordinated and have a 
comprehensive strategy that maximizes our resources is a 
challenge, and one that we will always have to work on, and 
something that is very important for this committee.
    And more than anything, we on this committee want to make 
sure that this continues to be a priority within the Department 
of Defense (DOD). I know there are a lot of competing 
interests, a lot of competing challenges--certainly from 
Afghanistan and Pakistan, Iraq, a number of different other 
issues--that it is easy for this to sort of slip a little bit, 
just because it is not happening immediately, not happening 
right now.
    It is a big threat that we want to make sure never happens. 
And to do that, I think we need to constantly work as much as 
possible to make sure that this stays a high priority for the 
Department of Defense and for our entire government. And that 
is the main purpose of our hearing is to get the update this 
morning on where we are at from our witnesses, who I will 
introduce in a moment.
    But first, I will turn it over to the ranking member, Mr. 
Miller, for any opening comments he might have.

 STATEMENT OF HON. JEFF MILLER, A REPRESENTATIVE FROM FLORIDA, 
   RANKING MEMBER, SUBCOMMITTEE ON TERRORISM, UNCONVENTIONAL 
                    THREATS AND CAPABILITIES

    Mr. Miller. Thank you very much, Mr. Chairman. I appreciate 
you having this timely hearing. I thank the witnesses who are 
going to testify before us today. I have a statement that I 
would also like to have entered into the record.
    But we know that ensuring that DOD can provide a much-
needed capability really is the reason that we are here today, 
and to hear testimony from Government Accountability Office 
(GAO) and DOD on the military's consequent management 
capability.
    I would like to ask that, as we delve into this critical 
and important topic, that I would like to hear comments on the 
national strategy and the national military strategy to combat 
weapons of mass destruction, which I am sure we will hear more 
about. And as we noted in this year's defense bill, there seems 
to be a divergence in the application of the concepts contained 
in those strategy documents.
    So, I would like to hear your thoughts on what might be 
lacking, what might be effective in our overall plan in 
organizing to deal with this threat. And I look forward to 
hearing your testimony today.
    [The prepared statement of Mr. Miller can be found in the 
Appendix on page 32.]
    Mr. Miller. Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Miller.
    With that, I will introduce the panel, and then I will take 
you left to right.
    We have the Honorable David Heyman, who is the assistant 
secretary of homeland security for policy in the United States 
Department of Homeland Security--welcome.
    The Honorable Paul Stockton, who is the assistant secretary 
of defense for homeland defense and America's security affairs, 
the United States Department of Defense.
    We are joined again also by General Victor ``Gene'' 
Renuart, the United States Air Force commander of U.S. Northern 
Command (NORTHCOM) and North American Aerospace Defense 
Command.
    They don't give out short titles over at the Pentagon to 
anybody, I don't think.
    So, welcome.
    Mr. Heyman, we will start with you.

STATEMENT OF HON. DAVID HEYMAN, ASSISTANT SECRETARY FOR POLICY, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Heyman. Chairman Smith, Ranking Member Miller, thank 
you for inviting me here today and for the opportunity to 
address you.
    The topic of the hearing is consequence management of 
chemical, biological, radiological, nuclear or high-consequence 
or high-yield explosive attacks--otherwise known as CBRNE. It 
is a topic that sits at the intersection of what I believe are 
three winding roads: the spread of transnational terrorism; the 
proliferation of nuclear weapons; and the advancement and 
diffusion of biotechnology.
    Our top priority at the department is to secure the 
American people from a range of terrorist threats. Preventing 
CBRNE attacks is at the core of Department of Homeland Security 
(DHS)'s mission and the reason the department was, in fact, 
created. So, too, is ensuring we are prepared to respond for 
any attack that may occur despite the nation's best efforts.
    Consequence management is a critical element in our 
nation's efforts to ensure that we are resilient in the face of 
an attack. We can be a more resilient nation. The more robust 
we are, the more agile we are responding to an attack, the more 
rapidly we can recover.
    But I want to stress that, alongside any discussion of our 
ability to respond to and recover from an attack, we need to 
also talk about prevention. Prevention and resiliency are two 
sides of the same coin, or to mix metaphors, they are the yin 
and yang of the nation's ability to manage risk.
    My testimony, which I will submit for the record, focuses 
primarily on biological and nuclear threats, because they are 
particularly of high consequence. Our best CBRNE defense is to 
put in place national and, in some cases, international systems 
consisting of robust prevention, protection, response and 
recovery capabilities.
    This is not simply a DHS responsibility. It is a national 
interest, requiring a comprehensive, integrated and layered 
approach, which combines the capabilities and resources of many 
entities across not only the federal government, but across 
levels of society. I have detailed these layers in my written 
statement.
    As Secretary Napolitano has said, one of our principal 
priorities within the department's all-hazard mission is to 
ensure that the nation can respond and recover from any 
incident, including terrorist attacks. The Homeland Security 
Act of 2002 tasked DHS with coordinating the federal 
government's civilian efforts to identify and develop 
countermeasures to CBRNE and other emerging terrorist threats.
    A number of national security and homeland security 
presidential directives, including particularly HSPD-5, the 
Management of Domestic Incidents, further defined the 
department's roles and responsibilities for consequence 
management. These authorities are also detailed in my written 
statement.
    When we consider nuclear threats, our emphasis must be 
primarily on preventing an attack, because the consequences 
would be catastrophic. As such, the nation's first line of 
defense against a nuclear attack is to ensure the control of 
nuclear materials and prevent the proliferation of nuclear 
technologies.
    If radiological materials and nuclear weapons cannot be 
controlled at its source, the next layer is to detect and 
interdict their movement. That is where DHS plays a critical 
role.
    Should these defenses fail, however, DHS and its partners 
must be ready to respond. Like natural disasters, a terrorist 
nuclear attack would be handled by the primary response arm of 
the Department of Homeland Security, and that is the Federal 
Emergency Management Agency, or FEMA. FEMA rapidly deploys to 
assist state and local officials in disaster-stricken areas.
    Unlike radiological and nuclear threats, however, we face a 
much different set of challenges with respect to bio. For 
biological attacks, the emphasis must be on consequence 
management and ensuring resiliency, because prevention is more 
difficult, and there are ways we can save lives after an attack 
to prevent it from becoming catastrophic.
    The biggest building blocks of the nation's biodefense 
strategy are to detect, to treat, to protect people from the 
attack, to partner with the National Center for Medical 
Intelligence and, finally, to strengthen the public health 
community at the state and local levels.
    Let me conclude by saying that the challenges of responding 
to high-consequence terrorist attacks are real. Our top 
priority will always be to mitigate the risk in the best 
possible way. Prevention and consequence management are central 
elements to our CBRNE defense, an approach that requires 
continued collaboration with our federal, state and local and 
international partners.
    We look forward to continuing to strengthen these 
partnerships and, thus, to improve our nation's resilience. And 
we also thank the subcommittee for inviting me here today, for 
its support, as DHS continues to carry out this important 
mission.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Heyman can be found in the 
Appendix on page 34.]
    Mr. Smith. Thank you very much.
    Dr. Stockton.

  STATEMENT OF HON. PAUL N. STOCKTON, ASSISTANT SECRETARY OF 
 DEFENSE FOR HOMELAND DEFENSE AND AMERICAS' SECURITY AFFAIRS, 
                   U.S. DEPARTMENT OF DEFENSE

    Dr. Stockton. Chairman Smith, Ranking Member Miller, 
distinguished members of the committee, thanks for the 
opportunity to testify today.
    My formal statement has been submitted to the record. I 
would like to make some brief oral remarks now, to provide a 
bit of context for the substance that I have put into my 
prepared statement.
    I want to have a key goal today with you, and that is, 
begin a dialogue that I hope will continue for years to come. 
Let me say a few words about why I hope that is going to be the 
case.
    It is my responsibility, obviously, to faithfully execute 
the laws. But there is much more at stake here. That is not 
nearly enough. Since well before 9/11, Congress has exercised a 
leading role in the policy realms over which I now have 
responsibility as assistant secretary of defense for homeland 
defense and Americas' security affairs.
    Today's hearing gives me the opportunity to listen to you 
and learn from your perspectives as I carry out my policy 
responsibilities in support of the undersecretary for policy, 
the deputy secretary and Secretary Gates, and, most 
importantly, as we all work together to help strengthen the 
security of the United States.
    Let me say a few words about the importance of the missions 
that we are going to be discussing today.
    The U.S. government's preeminent national security goal is 
to prevent a CBRNE attack on the United States. But as David 
Heyman just mentioned--and as you did, Mr. Chairman, in your 
opening remarks--we also have to be prepared for the 
eventuality that, despite our best prevention efforts, our 
adversaries will succeed in conducting an attack.
    So, today, as we examine how DOD can best support 
preparedness for CBRNE response, a key word that I keep in mind 
here is that of support. DOD is going to be in support of civil 
authorities in responding to catastrophic natural or manmade 
disasters when directed by the President or as authorized by 
the secretary of defense.
    At the federal level, this means being in support of DHS 
and the other lead federal agencies. But it is also important 
to remember that federal civil authorities aren't the only ones 
who are vital in response and preparedness. Governors, mayors, 
county executives, state and local contribution to preparedness 
in response for disasters is absolutely vital. It is enshrined 
in our Constitution. And we take that support role very, very 
seriously at the Department of Defense.
    It is something I thought a lot about as an academic, and 
now that I have the honor of serving here, something I am going 
to continue to take very, very seriously.
    Let me close by offering a few words of thanks. First of 
all, thanks to all of you for keeping the heat on, for creating 
the position that I now have the privilege to occupy. Thank you 
for the creation of National Guard Weapons of Mass Destruction 
(WMD) civil support teams, and then many other initiatives on 
which Congress took the lead that have helped strengthen the 
nation.
    Secondly, I want to take a moment to thank the brave women 
and men in uniform today for serving both in far-off places, 
like Afghanistan and Iraq, but also here at home, whether it is 
defending our skies in Operation Nobel Eagle, or whether it is 
assisting first responders in dealing with fires, earthquakes 
or other natural hazards.
    Mr. Chairman, I look forward to your questions.
    [The prepared statement of Dr. Stockton can be found in the 
Appendix on page 45.]
    Mr. Smith. Thank you very much.
    General Renuart.
    I should point out for you, and I didn't mention this in 
the opening, we do have a second panel, or a second person as 
the second panel. It is a panel of one, I guess. Ms. D'Agostino 
is going to be testifying from the Defense Capabilities and 
Management from the GAO's office. So, we will go through this 
round. That is for members' information as much as anybody's.
    We will do questions with you and then move on to the next 
panel.
    Go ahead, General.

STATEMENT OF GEN. VICTOR E. RENUART, JR., USAF, COMMANDER, U.S. 
 NORTHERN COMMAND AND NORTH AMERICAN AEROSPACE DEFENSE COMMAND

    General Renuart. Well, Mr. Chairman, good morning. It is 
great to be back with you again. I appreciate the support that 
we have had from this committee over the years of my tenure.
    Members of the committee, I am particularly pleased to have 
a chance to join my two colleagues here, Dr. Stockton and Dr. 
Heyman, in participating in this important opportunity to 
describe a national capability that is critical to our future.
    It is also an opportunity to say thanks to our young men 
and women each day who are wearing the cloth of our nation, 
both defending the homeland here and deployed, as you mentioned 
early on, Mr. Chairman and Mr. Ranking Member, in your comments 
as we began the hearing.
    As commander of NORTHCOM, I am assigned two principal 
missions: that of providing for military defense of our 
homeland against nation-state threats and non-nation-state 
threats; and to support civil authorities, when directed, with 
unique DOD capabilities in times of crisis.
    Our role in responding to a crisis such an attack involving 
CBRNE materials is to provide trained and ready consequence 
management response forces, when requested from those civil 
authorities, as Dr. Stockton mentioned, to save lives and help 
mitigate pain and suffering. The specialized response force 
teams augment the consequence management efforts of state and 
local first responders, of the National Guard when called to 
duty by their governors, and of other federal agencies.
    We provide complementary and unique capabilities as a 
follow-on line of defense, as it were, only when the effects of 
the first responders are exceeded--I am sorry, the capabilities 
of the first responders are exceeded.
    Our efforts at NORTHCOM to prepare forces to assist in the 
aftermath of a CBRNE event are part of a combined national 
response framework. Our collaboration with federal and state 
partners, with governors, with the National Guard, are all key 
to this homeland response strategy and to our level of 
preparedness, as well.
    We also partner actively and aggressively with our 
colleagues in the Department of Homeland Security, particularly 
with the Federal Emergency Management Agency, to prepare for--
and I stress ``to prepare for''--these kinds of events, so that 
we can respond rapidly to minimize loss of life and property.
    At NORTHCOM we train hard to ensure our operational 
readiness, and our mission effectiveness in executing this 
mission are always at the best they could be. We cannot delay 
our ability to defend our nation against any threat. We cannot 
delay our planning efforts to mitigate the threat of an attack 
on our nation.
    We will keep up the momentum, remain alert, and partner 
with all of our other mission partners to anticipate and 
prepare for possible crisis. We don't have the luxury in the 
homeland of long-term--of long lead time in many cases. Whether 
it is Mother Nature or the potential for a terrorist attack, 
the response must be of high quality, and it must be immediate.
    Mr. Chairman, thank you for the opportunity to be here 
today. And we look forward to your questions as well.
    [The prepared statement of General Renuart can be found in 
the Appendix on page 56.]
    Mr. Smith. Thank you very much.
    We will follow the five-minute rule in questioning. We 
should have plenty of time, so if members have more questions 
than that, we will go around and do a second round. But I find 
it best to keep it to the five-minute rule in terms of moving 
the conversation forward.
    Dr. Heyman, I want to start with you in terms of the 
coordination efforts. Could you give us a picture of who all 
you are coordinating basically within this effort up front at 
preventing the attacks in the first place?
    What other agencies are principally involved? How are those 
responsibilities divided up? And then, following up on that, I 
would be interested to get your perspectives on how well that 
is working and how it could be better coordinated.
    Mr. Heyman. Sure. Thank you for the question. At the 
centerpiece of our coordination effort is Homeland Security 
Presidential Directive-5 (HSPD-5), which describes the domestic 
incident system. That management of the crisis is the principal 
responsibility of Federal Emergency Management Agency (FEMA) 
and the Department of Homeland Security.
    The ability to do that starts with our national operations 
center, which continually monitors potential major disasters.
    Mr. Smith. And I am sorry--are you talking here--you are 
talking here about responding to disasters, as opposed to 
prevention.
    Mr. Heyman. I am talking about responding.
    Mr. Smith. Okay. Do that, and I am interested in 
prevention, too, as well, but go ahead.
    Mr. Heyman. Okay. Sure. On the response side, on the 
consequence management side, the department continues to 
monitor potential disasters and emergencies. And when advance 
warning is received, DHS may deploy, in coordination with other 
federal agencies, liaison officers and personnel to states that 
may require assistance.
    If there is a determination that there is a need for 
additional resources, and the disaster is declared, the 
department coordinates all of the federal family.
    And the central centerpiece of this is something called the 
emergency support functions. There are 15 of them, and they 
have various capabilities that are required for responding to a 
crisis to include communications, to include debris removal, 
mass medical care and such.
    The federal family all play roles in each of those support 
functions, including the Department of Defense. There are also 
sort of state and nongovernmental entities that are involved in 
response as well. So the department has a broad reach in 
coordinating the response.
    Mr. Smith. And two quick follow ups to that. One, so that 
is for whatever the disaster is, even beyond--and occasionally 
I miss an initial here, but CBRNE--even beyond that, like if 
there was, you know, a natural disaster, but also disease--you 
know, we are very concerned about the swine flu and the way 
that is going--if there was a big huge outbreak, DHS would be 
at the theater that with FEMA's well, no matter the disaster, 
and the different agencies that you plug in, depending on what 
the specific threat is. Is that?
    Mr. Heyman. That is correct. We have an all hazards 
approach, whether it is a natural disaster or a deliberate 
attack. The department has taken leadership role in domestic--
management of domestic incident.
    Mr. Smith. Okay. And what about on the preventions side? 
This may be more DOD that we are talking to, so Dr. Stockton, 
feel free to jump in, or General Renuart.
    But what is sort of the coordinating agencies that are most 
looking out there, trying to figure out how to prevent that 
specifically--obviously, you can't prevent a hurricane--CBRNE 
attacks?
    Mr. Heyman. Well, I will take the first answer on that, 
that I think it is the--what you have to do is look at each of 
these separately. And I focused on nuclear and biological.
    On nuclear on the prevention side, we sort of have a 
layered defense approach. The government looks at controlling 
nuclear material as a first line of defense, so that they don't 
fall into the hands of those who would seek to do harm.
    There are a number of agencies that are leading that 
effort. The Department of Energy has a role to play. The 
Department of State has a role to play. The Department of 
Defense has a role to play. Nunn-Lugar legislation is one of 
the governing authorities on protecting from materials going--
--
    Mr. Smith. Does any one of those groups have the lead? I 
know when I have traveled internationally recently, there has 
been--you know, DHS has shown up in different embassies, 
depending on the issue, and there is, you know, consternation--
basically, people trying to figure out, okay, where does DHS 
fit within the traditional State Department role and the 
traditional DOD role?
    Focusing on this aspect of it on nonproliferation, 
actually, who is leading that effort? And then how is that 
support group put together?
    Mr. Heyman. So the proliferation security initiative, which 
is led by the State Department, really tries to be an umbrella 
for including most of these activities as coordinated not just 
with the federal government, but on the international level. 
And other nations contribute to what is a large international 
effort to stem the spread of the nuclear material and nuclear 
weapons.
    Mr. Smith. Okay. I will follow up with this later on. I 
will respect the five-minute time and recognize Mr. Miller for 
five minutes.
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Heyman, you know Florida prepares every year for a very 
long hurricane season, and so we are accustomed to coordinating 
working with the federal agencies on natural disasters. But 
what I would like for you to talk about is how DHS manages 
CBRNE incidents--a CBRNE incident compared with a natural 
disaster.
    Mr. Heyman. It is a good question. And let me just thank 
the state of Florida for our new FEMA director, who is a----
    Mr. Miller. Yes, you got a good one.
    Mr. Heyman. We are very grateful to have them here. In 
fact, I thank him this morning for giving me the opportunity to 
testify instead of him.
    Mr. Miller. Let the record reflect that Mr. Fugate did not 
report to where he should have been.
    Mr. Heyman. On the distinction between CBRNE attacks and 
all other hazards is slight. We actually do have the design of 
our nation's ability to respond to these type of attacks goes 
through the national response framework and, as I said, our 
domestic incident preparedness concept.
    The distinction between the CBRNE attack and other hazards 
is the notion is the notion that they are deliberate and 
therefore require potentially additional interdiction or 
attribution. As a consequence of that, in some--in those 
instances, you would have additional work, perhaps by the FBI, 
Justice Department, in leadership roles looking at those two 
particular aspects.
    Mr. Miller. And, Dr. Stockton, Research and Development 
(R&D) investments are crucial, if you will, to the advancement 
of the technologies for CBRNE consequences management. How does 
DOD spread that across the, I guess, the system, if you will, 
the investment of those R&D dollars?
    Dr. Stockton. The under secretary of defense for 
acquisition technology and logistics provides overall oversight 
to make sure that the priority needs for response are going to 
be addressed by the research and development community. So he 
is in the lead on the civilian side.
    Very important, the Joint Staff also has a joint 
requirements office for chemical, biological, radiological and 
nuclear defense. These acronyms are going to kill me at some 
point. And they ensure coordination to make sure that from the 
armed services perspective, the R&D requirements are going to 
be met.
    We also coordinate very closely with our interagency 
partners across the spectrum, including DHS, but also the 
Department of Energy, our other federal partners. And let me 
emphasize also that we exercise frequently for these response 
requirements so we can discover unmet needs, we can figure out 
how DOD's research and development capabilities can best be 
harnessed to serve the CBRNE response.
    Mr. Miller. Thanks.
    And, General, how does NORTHCOM coordinate intelligence 
sharing and operational planning activities with other DOD 
organizations and with other agencies in response to a CBRNE 
incident?
    General Renuart. Well, Mr. Miller, I would even like to 
jump back before the event to talk about that, because I think 
it also gets to both of your questions about prevention.
    This partnership in intelligence sharing is critical to 
prevention for these kinds of events. We have an active role to 
play each day as a member of the National Counterterrorism 
Center (NCTC).
    We and the United States Special Operations Command 
(USSOCOM) have invested intelligence and operations analysts to 
sit in these organizations each day, looking to reach into that 
network of proliferators and potential users of a weapon of 
mass effect for terrorist activities.
    We have a partnership not only with NCTC, but with the 
FBI's Joint Terrorism Task Force. We work very closely with the 
Department of Energy with DTRA, the Defense Threat Reduction 
Agency, on the technical capability of some parties to take 
advantage of, to use, and then maybe to weaponize some of these 
kinds of agents or nuclear materials.
    So that partnership with both law enforcement and with the 
intelligence communities has allowed us to become much more 
proactive ahead of one of these events. Certainly, when an 
event occurs, if it were to occur, again DOD has a supporting 
role, but a very key supporting role.
    For example, the FBI has the responsibility for the 
recapture and recovery of nuclear material that may have been 
stolen. We provide very significant support for the FBI--in 
fact, have exercised that in our last spring Ardent Sentry 
exercise.
    We work very closely with the FBI on the attribution. An 
event like this becomes a crime scene to a degree, and it is 
important for the FBI and other law enforcement agencies to be 
able to capture the evidence so that we can begin to attribute.
    So this interagency partnership is one that is critical to 
our success, and we play a very active role on a day-to-day 
basis with them.
    Mr. Miller. Thank you.
    Mr. Smith. Thank you very much.
    Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    Mr. Stockton, you began by addressing yourself to the 
chairman and the ranking member and the distinguished members, 
and I found myself wondering whether or not you were talking 
with me as well. I kind of doubted that.
    This is slightly off topic, but it would be helpful to me 
to have your thoughts on the value in preparedness for these 
kinds of problems of having a secure power on base--on military 
bases scattered throughout the United States.
    The House version of the bill at my request--this year's 
authorization bill at my request has a provision requiring that 
DOD study the possibility of installing nuclear power on 
military installations.
    The intent is to explore the possibility of public-private 
partnerships that would both enhance the independence and 
security function that military bases can provide, with secure 
power available, despite what catastrophe might occur, and at 
the same time try and address energy independence and 
affordable energy, because the power plants presumably would 
feed back into the grid from military bases.
    And I would like your thoughts on--you know, we are 
extremely familiar with this; at least in the Navy we have been 
doing this for 50 years with no incident--thoughts on smaller 
nuclear plants that are hardened against various attacks--
Electromagnetic Pulse (EMP) comes to mind--and what benefit 
that provides us.
    During Katrina, it seems to me that it would have been nice 
to have some secure power plants in the region that was just--
where power was knocked out for days at a time.
    Dr. Stockton. Thank you, Congressman Marshall.
    It is an especially important question for me to address, 
because in my responsibilities as assistant secretary of 
defense, I am also responsible for defense critical 
infrastructure protection and ensuring the ability of the 
United States military to execute its core mission.
    And if there is no power, it is very difficult to do so. In 
fact, it would be catastrophic in terms of our ability to 
execute our core mission.
    So ensuring the reliability of power through the bulk power 
system, through backup power systems that would deal with the 
eventualities of either natural catastrophes are potentially 
attacks on that power system--that is a priority.
    And I want to thank you for calling everybody's attention 
to it that--you and your colleagues both this year and in years 
past.
    In terms of the particular ways in which best providing for 
the reliability of the flow power to the Department of Defense 
facilities and also, as you point out, finding ways of 
leveraging such investments so they benefit the civilian 
economy as well, especially because so much of the Department 
of Defense depends on our private sector for the execution of 
our core mission, I think it is terrific to look for the dual 
advantages of investment in terms of--in particular, how to 
accomplish this goal of reliability and resilience in the flow 
of power.
    I don't yet have a lot of expertise on that issue, but I 
sure do welcome the attention that you and your colleagues are 
helping to focus on this issue, which is absolutely vital for 
our ability to assure the execution of DOD missions.
    Mr. Marshall. As the language now stands, I don't know that 
it encourages DOD to think about this particular aspect. Well, 
I think it does, but in any event I would hope that perhaps you 
could add your voice within DOD, encouraging DOD to be thinking 
about these kinds of benefits associated with independent 
secure power on our military installations.
    Dr. Stockton. I will do so, sir. Thank you.
    Mr. Marshall. Thank you.
    Thank you, Mr. Chairman.
    Mr. Smith. Good. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here and for your testimony 
and addressing our questions. I am still sort of grappling, and 
I think all of us are at one level or another, with the 
fundamental question of who is in charge.
    I know when I was out, General, visiting with your 
predecessor, Admiral Keating, at NORTHCOM, I was very impressed 
by the sort of interagency presence that was there and plans 
that were either developed or being developed and being put on 
the shelf. I am sure they are all completed and ready to go 
now. But the question is still sort of troubling.
    Dr. Heyman, you said at one time there are a number of 
agencies leading that effort. And the chairman sort of followed 
up and said, ``Well, who really is in the lead,'' because if 
there are a number of agencies leading, I would argue that 
nobody is really leading. There is nobody in charge.
    And in the case of the DOD assets--gosh, we have a lot of 
them, and that is a pretty good thing, I suppose--we have the 
National Guard Weapons of Mass Destruction Civil Support Teams, 
the National Guard CBRNE Enhanced Response Force Packages, the 
DOD CBRNE Consequence Management Response Force, the Joint Task 
Force Civil Support Program.
    And again, we always have these Title 10 sort of questions. 
When are these forces federal and when are they state? When do 
they work for the governor? When do they work for the general?
    And looking in particularly at the CBRNE Consequence 
Management Response Force, which is fundamentally a pretty 
large force when you put it all together, I am looking at the 
notes here, frankly prepared by the quite excellent staff, that 
point out that originally these CBRNE Consequence Management 
Response Forces were to be assigned to U.S. NORTHCOM, and now 
they are being allocated to NORTHCOM.
    And so again, it is a question of who is in charge when. 
And I am wondering, General, if you could talk about why that 
change and the impact it might have? Does it lessen your 
ability to influence these forces to make sure they are trained 
and prepared? Could you address that change for me, please?
    General Renuart. Yes, sir. Happy to. And thank you for the 
question.
    Important to note that the forces you described, the civil 
support teams (CST), the CBRNE Enhanced Response Force Package 
(CERFP) and that acronym, and then the Consequence Management 
Response Force are not designed to be stand-alone forces, but 
really are designed to integrate with each other as the size of 
the event grows.
    Very small events, and we have--technically, CBRNE events 
occur almost every day in our country, and those small Civil 
Support Teams travel out on behalf of the governor to do the 
assessment and identification of the agent and begin to 
recommend initial mitigation actions.
    And those are done, if you will, under the command of the 
local first responder--that fire chief, that police chief, the 
mayor. As the event is seen to be more significant, the 
governor has the ability to pull in that large--next larger 
team, the CERFP.
    Those are guardsmen in state active duty status. They could 
also be in Title 32 funding, but still under the command of the 
governor, to provide sort of the next layer of muscle if the 
event grows.
    And then finally, if there is need for--and I must add if 
all--at the same time these military forces are being employed, 
that FEMA and DHS have similarly configured civilian first 
responders. So this becomes additive as we see the significance 
of the event occur.
    Finally, if we approach a catastrophic type of event--we 
talked about nuclear, but there could be other types--this 
Consequence Management Response Force (CCMRF), which is fairly 
robust, could come in then to provide sustainability over 
longer periods of time for larger casualties for a broader 
event.
    The command, if you will, of those state forces rests with 
the governor and continues to do that. Both the federal 
military and the federal civilian responders come at the 
request of the governor really to support the needs of that 
state, but bring capability that the governor does not have in 
his quiver, if you will.
    Those military forces stay under the command of U.S. 
Northern Command, and they are there in support of those lead 
agencies--federal and state agencies. So command is not ever a 
question. It is how you integrate the control and the execution 
of those operations on the ground.
    To your specific question of assigned versus allocated--
sorry I am long-winded sometimes, Mr. Kline.
    Mr. Kline. It is all right. So my time has turned to red, 
but as long as the chairman will let you answer, I am a happy 
guy.
    Mr. Smith. Go ahead. Please do. Yes. No, go ahead.
    General Renuart. And I appreciate----
    Mr. Smith. We have plenty of time. Go ahead.
    General Renuart [continuing]. Mr. Chairman, the ability to 
continue.
    But in terms of assigned versus allocated, in a perfect 
world every commander would like all of their forces assigned 
to them. We are in a very busy time in our nation right now, 
and we are using forces in many ways, and in some cases ways 
they were not originally designed for.
    And so we have--the secretary and the chairman have 
adjusted this assignment process to something called allocated 
with operational control. The bottom line is it allows me to 
get access to those forces at--when I need them. It allows me 
to have training and readiness oversight of them. It allows me 
to make an input on funding for them, if funding is an issue.
    But they can also be used--they are not technically 
assigned to me for the administrative process. I have no 
difficulty with that today. And given the circumstances that we 
have with the demands on our forces, it is appropriate to 
continue that. But that is--maybe it is a nuance difference in 
the assignment versus the allocation.
    Mr. Kline. Thank you. I would suggest it is perhaps a tad 
more than nuance, but thank you.
    I yield back, Mr. Chairman.
    Mr. Smith. Thank you.
    A couple of other questions. I know we have the Government 
Accountability Office (GAO) testifying afterwards, but I want 
to get your comments, and perhaps both General Renuart, Dr. 
Stockton, about DOD's plans on consequence management in this 
area.
    A GAO report basically finds those points are--they are 
being worked on, but they are incomplete. They have not 
actually finished, you know, integrating them fully into what 
Homeland Security and others are doing. I just wonder if you 
could comment on the progress of that and your thoughts on the 
GAO report.
    General Renuart. Just very quickly, sir, the GAO's--the GAO 
has a--it is fair to say that the progress is mixed in certain 
areas. We have done a great deal of work in partnership with 
DHS on each of those planning scenarios.
    The integrated planning system that we are now using as the 
benchmark has been in existence formally for just about a year 
and a half, and so we are still building some momentum in that 
regard.
    Having said that, Secretary Chertoff and now Secretary 
Napolitano have invested in significant ways in creating the 
planning capacity within DHS that can partner with the DOD in 
these areas.
    And I am actually very comfortable that we have made great 
progress over the last year in particular to begin to complete 
actually a number of those plans. And I think we are well on 
the road to complete the remainder in a very short period of 
time.
    Dr. Stockton. Let me just support what General Renuart has 
just said, but also emphasize that across the board, we are 
looking for opportunities and acting on them to strengthening 
the planning process to build integration. And that is true not 
only within the federal family, but with our state and local 
partners as well.
    The Integrated Planning System (IPS) is a key vehicle for 
this. Is IPS perfect now? No. We are just standing it up. We 
are looking forward to making improvements, but we have 
terrific partners at DHS and building on the foundation that we 
currently have today and doing more to integrate and complete 
the process that is now under way.
    Mr. Smith. I have one other specific question about the 
response side, and it has long been a frustration. You know, 
certainly, it was present in 9/11. It was also present in 
Katrina that when a large-scale disaster like this hits, the 
communications, the ability through cell phones, walkie-
talkies, whatever communication system.
    And there have been a number of technologies out there that 
attempt to prioritize this. I am aware of a couple of them that 
basically set it up so that in the emergency you can instantly 
get, you know, your--you know, the people who need to be able 
to communicate with each other will have priority, will be able 
to do that, and that they will also be integrated just in 
general, so the fire department can talk to the police 
department can talk to the National Guard can talk to DOD.
    There has long been a frustration that while this 
technology exists, that it is seemingly very slow in the 
appointment as of last report. And I am just wondering if 
anyone of you would like to give an update on that.
    Mr. Heyman. I actually am--I would have to get back to you 
on that one. I am familiar with the prioritization. There is a 
system in place to prioritize communications during a crisis, 
which the department has led on.
    And there are also additionally--in order to restore 
communications, we have put in place pre-authorized contracts 
to ensure that communications amongst first responders and 
other officials are established rapidly in a priority way.
    Mr. Smith. When you say there is a system in place on the 
front end, I mean, are you confident right now? I mean, pick a 
random city, you know, Denver. You know, if there is a big huge 
incident there, are all the key players in that area, you know, 
linked into a system that would enable them to communicate with 
one another in an emergency?
    Mr. Heyman. So the answer--the answer is yes, but the way 
that that goes forward is both in terms of our public-private 
partnership and our relationship with the private sector that 
has communications, as well as federal communication systems as 
well, including the Department of Defense, that support our 
ability to put in place rapidly, within the first 48 to 72 
hours, communications. And I can get you some more details on 
that.
    Mr. Smith. Yes, I would be very interested, because a lot--
as I understand it, a lot of this technology is stuff that, you 
know, needs to be, you know, implemented now, obviously.
    And some of it is, you know, in a crisis situation, you 
know, systems are down. There is limited bandwidth. All of a 
sudden, you know, everybody is on the phone for one thing. You 
know, how do we make sure that the people who really need to be 
on the phone can be? Is that in place?
    And the other piece of it is more upfront. You know, there 
are a lot of different hardware and software systems that are 
spread out amongst the various different organizations, and 
they may or may not be able to talk to one another. I know some 
cities, some counties in my area have bought technology that 
enables them mainly through software, so they don't have to 
change the hardware. Software enables them to be able to do 
that.
    But I would be interested in if you could, you know, get 
back to the committee on specific answers on how--what sort of 
progress we have made on these two technologies. That would be 
great.
    Mr. Miller.
    Mr. Miller. I think Mr. McIntyre would like to go into this 
for his round of questions.
    Mr. Smith. Okay. Go ahead.
    Mr. McIntyre. I am fine. You go ahead.
    Mr. Miller. Just one quick question to the general. What 
protocols have to be met for NORTHCOM to become involved in a 
CBRNE event?
    General Renuart. Mr. Miller, I think the--as we have 
mentioned earlier, we come at the request of the governor and 
the lead federal agency.
    And so there is a process that would be activated upon an 
event occurring, where the state emergency manager and the 
governor would make a determination that the size or 
consequences of this particular event were large enough that 
the state and their emergency management assistance partners, 
those Emergency Management Assistance Compact (EMAC) partners, 
may not have the capacity.
    At the same time, the governor would go to the President 
with a request for a disaster declaration, which, as you know, 
frees resources to begin to support the state.
    But in terms of NORTHCOM in particular, as soon as the 
event occurs, we establish contact with the adjutant general in 
the state. We establish contact with our FEMA region director. 
We have a defense coordinating officer, who sits with that FEMA 
region director so that we begin to get a sense if this event 
is growing large enough for rapidly enough that there may be a 
need for DOD support.
    Mr. Miller. What happens--and I am going to ruffle some 
feathers by asking this question--if the governor and the local 
officials don't get it. They absolutely have become 
overwhelmed, as they did with Katrina, and don't make the call 
quick enough.
    General Renuart. Well, Mr. Miller, I think the President 
ultimately has a responsibility for the nation to make a 
determination of the speed at which some event is unfolding. 
That is not a NORTHCOM decision.
    My role is to ensure that, if I am asked, I have all the 
pieces in place to be supportive. So, I would defer to the 
national leadership to make a policy decision on the ability of 
an individual state. That is not really mine to call.
    What we try to do is look at each of the states, and in 
each of the regions, to understand where they have shortfalls 
and limitations in equipment, in expertise, in planning 
capacity, and then try to help them up front before an event 
occurs to be as successful as they can.
    How things unfold under pressure is really more a national 
issue to deal with.
    Mr. Miller. And I understand, but you led the answer to 
your question by saying that the call would be made by the 
governor and----
    General Renuart. I understand.
    Mr. Miller [continuing]. With individuals. And that is why 
I wanted to drill down.
    Mr. Chairman, that is all.
    Mr. Smith. Thank you.
    Mr. McIntyre.
    Mr. McIntyre. Just one question, Mr. Chairman.
    Can you tell us, General, in specific, what kind of 
exercises have occurred that have tested the consequence 
management system?
    I know occasionally, maybe one city might do some type of 
exercise. But can you tell us specifically what exercises have 
been done, and whether or not they have been done in such a way 
that they could serve as an example for yet other cities, who 
may not have done them, to follow?
    General Renuart. Mr. McIntyre, absolutely. And this is an 
area that I think is not well understood by many.
    There is a very detailed and layered exercise program that 
exercises each of these elements of the consequence management 
system repeatedly. And I will just give you a couple of 
examples.
    On behalf of the National Guard, U.S. Northern Command 
managed the Vigilant Guard exercise. And these are conducted in 
states by the National Guards of each individual state. They 
are supported by U.S. Northern Command with evaluators and 
certifiers, and those kinds of folks, who specifically look at 
our consequence management civil support teams and the CERFPs 
in each state.
    Those are done at the request of the states, so they are 
not on a recurring basis. But each year we conduct about seven 
or eight of those around the country.
    Secondly, we have the training and readiness oversight for 
the CSTs, as well. So, they actually have a periodic 
certification exercise that we conduct through U.S. Army North 
and their consequence management evaluation team.
    The follow-on piece, the large-scale piece, is the exercise 
of the so-called consequence management response forces. In the 
last year, as you know, we brought the first one into 
operational status.
    Prior to that operational determination, we had a series of 
small unit to large unit exercises and training programs that 
allowed the leaders and allowed the individual soldiers and 
airmen, sailors, to practice the skills that they would need.
    We then conducted a consolidated command and control 
exercise, so that we had an integrated opportunity to test and 
evaluate decision-makers from the headquarters down to the 
small unit commanders.
    Finally, twice each year we have an exercise, one called 
Vigilant Shield, one called Ardent Sentry, which are designed 
to test some or all elements of the consequence management 
response forces at a deployed location.
    This past year, we conducted a no-notice--a number of no-
notice deployment exercises, so that we tested the ability of 
each unit to pack up its stuff, in some cases to have it 
prepositioned already, to move it to airlift heads, and then to 
move to a location where the exercise would occur. We have done 
that twice this year.
    As we approach the new fiscal year, we have two large-scale 
exercises for the new consequence management response forces 
that will come on line. And we will physically deploy a full 
CCMRF--that 4,500 size force--to a location well away from 
their home stations, to exercise for an extended period of time 
in a catastrophic event.
    We have partnered these with the national exercise program 
that DHS leads, so that we also get national level policymakers 
involved in the decision process as we go through these 
scenarios.
    So, I think we have developed a layered and very well 
thought-out exercise program--very different from what we had 
just a few years ago.
    Mr. McIntyre. Thank you. Thank you, Mr. Chairman.
    Mr. Smith. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    General, I am heartened to hear about the exercise. It 
addresses the issue that I was getting at earlier, that if 
these forces are allocated, not assigned, do you still have the 
ability to train and exercise the forces. It sounds like you 
do, certainly with the exercise schedule.
    I hope that the individual training that goes with that is 
proceeding, as well, and that you are providing oversight for 
that, for these forces that are not assigned to you and 
presumably are stationed elsewhere, but are allocated to you.
    But seriously, I am heartened by the response to Mr. 
McIntyre's question.
    I want to kind of follow up, because I am still grappling 
with the ``who's in charge'' question. And Mr. Miller asked the 
question, what if the governor or the local authorities simply 
aren't responding, they are incapable, or sort of don't 
understand the magnitude.
    Another way to get at this problem is, what if you have an 
event, CBRNE event, that I can think of at least one major city 
where you might have four or five states involved, presumably 
Pennsylvania and New Jersey, perhaps Delaware or Maryland. 
Pretty easily you could get four or five states involved 
instantly.
    Who is in charge?
    To anybody here, are the procedures in place to make that--
presumably, the President can be in charge at any time. But is 
there an established series of steps to address that?
    Mr. Heyman. There are a number of triggers by law that set 
in motion when the federal government gets involved. If a--in 
addition to a governor requesting aid, a Stafford Act 
declaration can be made along a number of different paths: if 
one federal agency requests it, if a multiple number of federal 
agencies are involved in the response, if the President 
determines that it is a natural--an emergency and an emergency 
declaration is required.
    States have an interest, obviously, in declaring a Stafford 
Act emergency, because it means that federal resources can 
start to flow to the state. And it is a mechanism I think that 
has worked quite well.
    In terms of how assignments go out as the department begins 
crisis management and consequence response, there is a standard 
mechanism called the ``mission assignment,'' which goes through 
these emergency support functions I laid out earlier, 15 
different support functions, that have basic functionality that 
is required for managing the crisis and reestablishing elements 
of society--things like firefighting, mass care, housing, human 
services, medical surge capacity, et cetera.
    The mission assignment is the vehicle that is used by FEMA 
in a Stafford Act disaster or declaration. And it gets your 
response going. It goes out to the different agencies that 
would have the lead. For example, the Army Corps of Engineers 
has the lead for emergency support in debris removal, and they 
would take it from there.
    The same thing for any kind of relationship with the 
Defense Department. There are mission assignments that go out. 
The secretary of defense reviews them to make sure those do not 
conflict with readiness of the forces. And we have operated 
under that for a number of years.
    Mr. Kline. General.
    General Renuart. Mr. Kline, I might follow up, just maybe 
an example that is very close to home, the I-35 bridge collapse 
in Minnesota.
    Mr. Kline. Great example.
    General Renuart. The process that we describe sounds 
bureaucratic and cumbersome. In point of fact, within about two 
hours of Governor Pawlenty's phone call to the Secretary of 
Transportation, who then went to the President, who went to the 
Secretary of Defense, who came to me, we had those Navy divers 
moving within a matter of two hours after that was complete. 
So, the process can work very quickly.
    And the difference between Katrina and today, is we have 
established the relationships among those participating 
partners, those other agencies of government, such that we can 
compress that response time down to hours and minutes, as 
opposed to days.
    We did a spectacular job after Katrina of moving 72,000 
uniformed military to Louisiana. The challenge is, we had no 
plans to integrate them. We had not done the spade work ahead 
of time, so that we knew who would be coordinating these 
activities.
    Mr. Kline. If I can, I see that my time is about to--I 
appreciate that. And it was a good example. It took really a 
couple of days before the President talked to Mary Peters, the 
Secretary of Transportation, who then talked to the Secretary 
of the Navy, who came back to you.
    But I guess, once you made that call, it was a matter of a 
couple of hours. But it took some time to get there.
    And just one more time on who is in charge, Dr. Heyman said 
that the DOD or Guard had responsibility for--had the lead for 
debris removal. But at some point, there is a competition for 
resources. And somebody has to be in charge to say, ``No, no. 
You can't have those cranes and that equipment for debris 
removal. We need it for rescue operations over here.''
    And as these things grow in size and you have multiple 
states, somebody has to be in charge. Whether it is the 
director of FEMA, or NORTHCOM, somebody has to make that 
resource allocation.
    Thank you. I yield back.
    Mr. Smith. Thank you very much.
    And one question, I know we were talking primarily about 
consequence management after the fact, how you respond. But as 
long as I have you here, the prevention piece is something that 
I am also interested in, and I asked a little bit about 
earlier.
    And General Renuart, I would be interested in your comments 
on the level of coordination on that, because this is a very, 
very complicated thing. Obviously, a lot of the prevention of 
these type of attacks happens overseas with some of the 
nonproliferation work, tracking the terrorist groups that might 
be inclined to launch such an attack.
    And then, a lot of it happens within the U.S., as well. And 
as NORTHCOM commander, preventing those sorts of attacks is, I 
am sure, right up at the top of your list of priorities.
    How do you plug in to that entire system of all of the 
different pieces that are involved with prevention, including 
FBI, other aspects of our intelligence community? And how 
satisfied are you in terms of the level of coordination, in 
terms of it is clear who is in charge of what, and how 
coordinated it all is?
    General Renuart. Mr. Chairman, again to sort of beat this 
drum, we do most of these things in support of a federal agency 
or to defend against a nation-state. And so, that requires a 
partnership with other combatant commands around the world.
    We share intelligence. We have a daily counterterrorist 
intelligence video teleconference (VTC) that we use to share 
information with Central Command (CENTCOM), for example, on 
terrorist elements that may be resident in their area of 
operations. And then, we work with our intelligence partners to 
study the networks, the links, that might bring them back here 
to the homeland.
    The partners who sit in that are not just military. We also 
have the FBI, as I mentioned. We have all of the intelligence 
agencies of our government.
    And that is an active discussion, sharing information, but 
also arguing points back and forth, so that we try to make sure 
we have asked the tough questions of how an event in Southwest 
Asia may relate to proliferation, may relate to a terrorist 
threat here in the homeland--with the intent being that we can 
interdict that chain somewhere outside our borders, we prevent 
an attack from occurring here in our country.
    That is not just a DOD effort. How we participate in that 
is through each of these collaborative analysis activities, and 
by raising questions and concerns that I have about a 
particular element of threat. We have talked about CBRNE events 
here, so bioresearch, protection and security of nuclear 
materials in other countries.
    I drive my intel team to go out and find that information. 
But that is resident in other agencies of government. And that 
is the kind of integrated collaboration we try to participate 
in.
    Mr. Smith. I think--yes, and that would be a piece, you 
know. Mr. Kline was talking about who is in charge. And there 
are a lot of different pieces to tracking particular 
individuals. But in this area in particular, it would be 
tracking specific threats with the chem-bio-nuclear area.
    And then, of all those different people, I mean, if a 
threat comes up, we think, you know--I don't know. If some 
chemical agent has been stolen in large quantities from some 
place, and it links in with some terrorists who we think might 
be in the United States, you know, at that point, I mean, you 
are there. FBI is there. Homeland security is there.
    But who is the person who would then say, ``I am managing 
these resources, okay. You are doing this. You are doing that. 
You are doing the other thing,'' to respond to this specific 
threat?
    General Renuart. Sir, just very quickly, this exercise we 
just completed is a good example of your question. It simulated 
a terrorist organization who had gained access to nuclear 
material in our country.
    The Federal Bureau of Investigation has the lead 
responsibility. But DHS partners with that. We partner with 
that. DOD has some unique technical capabilities that are 
exercised in support of that.
    So we have worked out those relationships and procedures 
ahead of the event. And in this particular exercise, we 
actually live deployed the FBI team, the DOD teams from home 
station to Wyoming to conduct this exercise in real time.
    So, very positive experience, and the command and control 
communications all worked very, very well.
    So, I think we are forcing ourselves to practice those 
scenarios and make them realistic.
    Mr. Smith. And ultimately, I think that is what works best 
is integration, is getting to know each other and working 
together through various collaborative processes. And there are 
a lot of different ways to do that. That is critical.
    I have nothing further. Does anyone else have any further 
questions for this panel? Okay.
    Thank you very much for your testimony. I really appreciate 
you coming here today.
    And we will stay in touch.
    Next up, we have Ms. Davi--and I am just not going to be 
able to pronounce it. D'Agostino, I believe, is somewhere in 
the neighborhood. And you can correct me once you--once we are 
cleared out here and you can have your seat.
    For the members' information, Ms. D'Agostino is going to be 
the one testifying. Mr. Kirschbaum, Mr. Anderson are there in 
support, in case we ask really tough questions----
    So, but Ms. D'Agostino, please--well, we have some shifting 
around here. Why don't we just----
    Ms. D'Agostino. Sure.
    Mr. Smith [continuing]. Take a moment for folks to get in 
and out.
    And if you could introduce----
    Ms. D'Agostino. Sure.
    Mr. Smith. [continuing]. More formally the two gentlemen to 
your left----
    Ms. D'Agostino. Of course.
    Mr. Smith [continuing]. That would be great.
    Ms. D'Agostino. All right.
    Mr. Smith. All right. Go ahead, please.

STATEMENT OF DAVI M. D'AGOSTINO, DIRECTOR, DEFENSE CAPABILITIES 
     AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. D'Agostino. Okay. I am Davi D'Agostino with the Defense 
Capabilities and Management Team at the GAO. This is Joseph 
Kirschbaum, assistant director, and Rodell Anderson, who is the 
analyst in charge on the work that we have been done for the 
committee on CBRNE consequence management capabilities at DOD.
    I would like to submit our testimony statement for the 
record, please. And I have a brief oral summary to present at 
this time.
    Mr. Chairman, Ranking Member Miller, distinguished members 
of the subcommittee, I am pleased to be here before you today 
to discuss the preliminary results of our work on DOD's efforts 
to provide CBRNE or CBRNE consequence management support to 
civilian authorities in the event of a catastrophic incident.
    The 2007 National Strategy for Homeland Security 
highlighted the continued threat posed to the United States by 
potential terrorist use of weapons of mass destruction and the 
need for comprehensive capability to deal with the consequences 
of a CBRNE attack. A catastrophic CBRNE event within the United 
States would require a unified whole-of-government, national 
response and would be a tremendous challenge.
    DOD plays a support role, including providing capabilities 
needed to save lives, alleviate hardship and suffering and 
minimize property damage caused by the event. NORTHCOM is to 
lead the military operations in direct support of another 
federal agency, most often FEMA. DOD has set its own goal of 
having forces ready to respond to multiple mass-casualty CBRNE 
incidents and has created significant capabilities that could 
be used to support a federal CBRNE response.
    Our work for this subcommittee has focused on DOD's CBRNE 
Consequence Management Response Force, the CCMRF, a brigade-
sized force comprised of parts of various military services 
units that are dispersed across the country. This testimony 
provides our preliminary answers to the following questions.
    One, to what extent are DOD's plans and capabilities to 
respond to CBRNE incidents in the homeland integrated with 
other federal government agencies' plans? Two, to what extent 
has DOD planned for, and structured, its force to provide CBRNE 
consequence management assistance. Three, how well-prepared are 
DOD's CCMRF to perform their mission? And four, does DOD have 
funding plans in place for the CCMRF that are linked to 
requirements for specialized capabilities?
    First, our work has shown DOD has its own consequence 
management plans in place for more than a decade now, but 
cannot fully integrate them, because the IPS, the Integrated 
Planning System led by DHS, is not complete. Second, our work 
today has shown that DOD's CCMRF's ability to respond 
effectively may be compromised because of its land response 
times, which are very long. And they may not meet the needs of 
a catastrophic event.
    Mr. Smith. Can I ask you--sorry, but the Integrated 
Planning System that has been discussed a couple of time. DHS 
is supposed to put this study together. It is not quite done.
    Ms. D'Agostino. And they don't have timelines to complete 
either, sir.
    Mr. Smith. Okay.
    Ms. D'Agostino. It is reported on the----
    Mr. Smith. Okay. What is done, what isn't done?
    Ms. D'Agostino. We have laid out in our testimony a chart. 
Let me--that talks about the various status. And I think it is 
on page----
    Is this it?
    Yes, page nine.
    Mr. Smith. Okay. I see. Okay. Sorry, please continue.
    Ms. D'Agostino. Sure. Secondly, the CCMRF may lack 
sufficient capacity in certain key areas, such as medical 
personnel and equipment and decon, decontamination 
capabilities. And third, it faces challenges enforcing the 
CCMRFs, because of the competition for overseas missions and 
the use of the Guard and the Reserves.
    Compounding these challenges is the fact that, starting in 
October 2009, DOD will allocate the units from all three CCMRFs 
to NORTHCOM, rather than assign them outright. As a result even 
though NORTHCOM's commander is responsible for commanding the 
domestic military CBRNE response, he will have less direct 
authority to control domestic deployment availability, to 
manage day-to-day training and to monitor the readiness of the 
units responsible for carrying out the mission.
    Third, our work has shown that, in the last year, DOD has 
taken many actions to improve the readiness of the units that 
were assigned to the CCMRF. But the CCMRF could be limited in 
its ability to successfully conduct operations, because first, 
it does not conduct realistic full-force field training to 
confirm the units' readiness to assume the mission or to deploy 
quickly. And, again, conflicting priorities between the CCMRF 
mission and the overseas deployments impacts some units' 
mission preparation and unit cohesion.
    Basically, the training and force rotation problems we have 
identified in our work have prevented DOD from providing the 
kind of stability to the CCMRF that would allow the units to 
build cohesiveness.
    Fourth, and finally, our work thus far shows that DOD is 
making progress in identifying and providing funding and 
equipment to meet CCMRF mission requirements. However, its 
efforts to identify total program requirements have not been 
completed. And its approach to providing program funding has 
been fragmented and is not subject to central oversight.
    For example, the initial CCMRF that was established in 
October 2008 does not have fully defined funding requirements 
for the necessary dedicated resources to effectively carry out 
the CCMRF mission in an integrated and consistent manner. While 
DOD officials have told us they are in the process of 
developing essential equipment requirements, they have not been 
fully identified and funded.
    We identified cases in which units have purchased their 
mission equipment and have funded CCMRF-related training 
activities from global war on terrorism monies and from 
operations and maintenance accounts. These accounts are not 
developed considering the CCMRF mission.
    As a result, DOD lacks the visibility into the total 
funding requirements for this mission. We do plan to provide 
the subcommittee and our other congressional requester with our 
final report in September 2009.
    And Mr. Chairman, members of the subcommittee, this 
concludes my prepared statement. And we would be happy to 
respond to any questions you may have.
    [The prepared statement of Ms. D'Agostino can be found in 
the Appendix on page 64.]
    Mr. Smith. Thank you.
    I am just following for a little bit on that. So, is it a 
matter of resources? They haven't dedicated enough money to 
complete this? Or do you think it is just of the--they have the 
resources, but it is complicated, and they haven't worked their 
way through exactly how to set up the CCMRFs and assign 
responsibilities? Which would that be?
    Ms. D'Agostino. Well, it could be a combination, because 
these are----
    Mr. Smith. Sure.
    Ms. D'Agostino [continuing]. From units that are spread all 
throughout the country. And so, there is the administrative 
issue of the funding that comes just from the structure--the 
inherent structure of the CCMRF. But beyond that, there is no 
single, you know, centralized point that, kind of, is 
responsible for hovering over and watching the total amount of 
funding that goes to the units that make up the CCMRF.
    Mr. Smith. So, there is no, sort of, CCMRF budget, if you 
will.
    Ms. D'Agostino. No----
    Mr. Smith. They have to sort of----
    Ms. D'Agostino [continuing]. Program element, right----
    Mr. Smith [continuing]. You know, getting a piece of 
equipment there, a piece of equipment there.
    Ms. D'Agostino. Exactly.
    Mr. Smith. Within the DOD then, could you identify who is, 
sort of, in charge or making sure the--got to love the acronym, 
by the way, the CCMRFs.
    Ms. D'Agostino. I know.
    Mr. Smith. Strikes fear in the heart of our enemies, I am 
sure. [Laughter.]
    Got these little blue guys running around to make sure 
nothing happens. Sorry about that.
    In terms of is there someone in DOD--like if you wanted to 
go say, okay, how come all this isn't happening--is there 
someone who is, like, the deputy under secretary in charge of 
CCMRFs? Or not that, but someone who is, sort of, supposed to 
be monitoring this? Or is this spread out across DOD?
    Ms. D'Agostino. It is spread out, no?
    It is spread out.
    Mr. Kirschbaum. Yes, Mr. Chairman. It is rather spread out. 
I mean, there are elements in the, for example, Dr. Stockton's 
office responsible for homeland defense. There are offices in--
the policy office responsible for those kind of things, also 
for consequence management, civil support. They all have 
responsibilities, are directly involved in providing for those 
forces. But there is no direct one person.
    Mr. Smith. Okay. It would seem to me that when in NORTHCOM, 
it would make sense to have such a person, you know, under 
General Renuart. Is that something that has been suggested to 
your knowledge? Or what is the----
    Ms. D'Agostino. We are formulating our recommendations into 
our report, which, you know, basically is--you have all the 
findings that are going to be in our report laid out here 
before you today. And we are formulating our recommendations. 
And one of the recommendations is toward the funding with 
centralized oversight.
    Mr. Smith. Okay.
    Ms. D'Agostino. And again, I don't think that we are going 
to be prescripted to DOD about who should be doing it. But----
    Mr. Smith. Right.
    Ms. D'Agostino [continuing]. I think we will have a 
recommendation to the secretary that someone be duly appointed 
to do so.
    Mr. Smith. And how many CCMRFs are there?
    Ms. D'Agostino. There are three----
    Mr. Smith. Okay.
    Ms. D'Agostino [continuing]. To be three.
    Mr. Smith. Okay. Regionally dispersed, I assume.
    Ms. D'Agostino. Well, even CCMRF 1 is very dispersed.
    Mr. Smith. Okay.
    Ms. D'Agostino. And then the follow on that the other two 
units are to be sourced from the National Guard. So----
    Mr. Smith. Okay.
    Ms. D'Agostino [continuing]. It makes it a little even more 
difficult to----
    Mr. Smith. Okay.
    Mr. Miller, do you have anything?
    Mr. Miller. No, other than don't forget the Teletubbies. 
[Laughter.]
    Mr. Smith. That would be a subgroup.
    Ms. D'Agostino. That is right.
    Mr. Miller. Yes. They will work on the push.
    No, no questions.
    Mr. Smith. Okay. I don't have anything further. We will 
certainly take a look at the report. And I think those 
recommendations are very helpful. And I think these are things 
that we should work on developing to get better coordination of 
who is in charge of what and where they are doing.
    This hearing has been very helpful to me.
    Do you have anything--any of you have anything to add?
    Ms. D'Agostino. Did you want to add?
    Mr. Anderson. Well, I would just add that, there is a lot 
of training programs in place for a strategic-type training at 
the tactical level where the CCMRF would operate. There--DOD 
and NORTHCOM are just beginning to get a training program in 
place. Because these units--it is not really a unit. It is a 
number of individual units that span all services.
    There are some civilian agencies that provide some of the 
resources as well as National Guard and reserve. And to bring 
this force together in an integrated manner to respond in a 
quick manner, there needs to be more opportunities for them to 
train together.
    Generally, the training plan that DOD used is crawl, walk, 
run. Because of frequent rotation in the units that have 
provided capabilities to this force, this force has not been 
able to get much past the crawl stage, because just as they are 
gaining some momentum, a new unit comes in and they have to be 
brought up to speed.
    So, while there are a number of strategic-level training 
programs, there have been a number of programs geared toward 
the leaders who are in charge of the various units. The actual 
tactical training for the units who would actually be on the 
ground providing support, that hasn't quite caught up yet. And 
hopefully in the future, they can get the participation that 
General Renuart spoke about, get the whole force actually in 
the field doing their mission real time.
    Mr. Smith. Okay.
    Anybody else?
    Well, thank you. I appreciate just knowing. I know when 
your full report comes out, we will do this again.
    So, I appreciate your work. And we will certainly stay in 
touch.
    We are adjourned.
    [Whereupon, at 11:15 a.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             July 28, 2009

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 28, 2009

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
